TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Appropriate Actions Were Taken to Prepare
                  for the Receipt of New Filing Information
                  From Smaller Tax-Exempt Organizations




                                       December 21, 2007

                              Reference Number: 2008-10-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 21, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Appropriate Actions Were Taken to Prepare for
                               the Receipt of New Filing Information From Smaller Tax-Exempt
                               Organizations (Audit # 200710034)

 This report presents the results of our review to assess the adequacy of the Internal Revenue
 Service’s (IRS) efforts to prepare for the receipt of new filing information by tax-exempt
 organizations with gross receipts of $25,000 or less as required by the Pension Protection Act of
 2006.1 This review was initiated due to the short time period between when the law was enacted
 and its effective date.
 On August 17, 2006, President Bush signed the Pension Protection Act requiring
 tax-exempt organizations2 previously not required to file an annual information return because
 their gross receipts were $25,000 or less, to electronically file specific identifying information on
 an annual basis. This new filing requirement is effective beginning January 2008. The Pension
 Protection Act also established a new requirement that organizations failing to provide this
 information or failing to file an annual information return for 3 consecutive years will have their
 tax-exempt status revoked.




 1
   Pub. L. 109-280, 120 Stat. 780 (2006).
 2
   Exceptions to this requirement include churches and certain religious organizations, organizations included in a
 group return, and private foundations or Internal Revenue Code Section 509(a)(3) organizations required to file an
 information return.
                   Appropriate Actions Were Taken to Prepare for the Receipt of
                  New Filing Information From Smaller Tax-Exempt Organizations




Impact on the Taxpayer
The IRS is taking appropriate actions to prepare for the receipt and processing of annual
electronic notices, also known as e-Postcards, submitted by smaller tax-exempt organizations.
However, a draft letter and some outreach materials used to inform organizations of the new
filing requirement did not include all information required by the new law. Exempt
Organizations function management took immediate action to revise the letter and outreach
materials, which will ensure the IRS provides clear and accurate information about smaller
tax-exempt organizations’ new filing requirements and prevent confusion by these organizations
about what information to provide. Inaccurate guidance to organizations could have resulted in
increased burden as these organizations try to determine what information should be provided
and possibly increased calls to the IRS to confirm what information is required.

Synopsis
The IRS identified approximately 650,000 tax-exempt organizations affected by Section 1223 of
the Pension Protection Act and began informing them3 of the new filing requirement and the
consequences for nonfiling. In addition, the IRS has initiated or planned a number of education
and outreach events to inform the tax-exempt community about the Pension Protection Act’s
requirements and has begun efforts to update notices, forms, and publications. Finally, the IRS
has begun development of an electronic system that will allow smaller tax-exempt organizations
to electronically submit an e-Postcard to comply with the filing requirements in the new law. As
of October 2007, based on our review of available documentation and discussions with Exempt
Organizations function and Modernization and Information Technology Services organization
management, the expected implementation of the e-Postcard in January 2008 is on schedule.4
We identified some areas of improvement related to the letter used to inform organizations of the
new filing requirement as well as outreach efforts performed to inform tax-exempt organizations
about the change in the law. For example, we reviewed a draft of the letter before it was issued
and determined that it omitted a provision to require organizations to notify the IRS when they
have terminated operations. In addition, we also reviewed documents that had already been
completed or updated as part of the IRS’ outreach efforts and determined that information could
be clarified in two of the documents to ensure that affected tax-exempt organizations understood
what information would be required from them beginning in January 2008.




3
 As of November 13, 2007, the IRS had sent 577,713 letters to affected tax-exempt organizations.
4
 Issues identified during testing of the e-Postcard system, implementation delays, or any proposed changes
necessary based on management’s review could affect whether the system is timely and successfully implemented.
                                                                                                                 2
                 Appropriate Actions Were Taken to Prepare for the Receipt of
                New Filing Information From Smaller Tax-Exempt Organizations




Recommendations
During the audit, we recommended the letter used to inform organizations of the new filing
requirement and other documents be updated to include all information required to be submitted
as part of the new e-Postcard filing requirement. Exempt Organizations function management
took immediate action to correct the letter prior to issuing it to affected tax-exempt
organizations. In addition, the IRS revised a document used to assist employees during
education and outreach efforts and agreed to revise a publication prior to its next reprinting.

Response
Since the IRS took immediate actions in response to recommendations made during the audit, we
made no additional recommendations in this report. However, key IRS management officials
reviewed it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                    3
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Is Taking Action to Inform Exempt
          Organizations of a New Filing Requirement and to Prepare for the
          Receipt of Electronic Information ................................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Examples of Outreach and Education Efforts
          Included in the e-Postcard Communications Plan ........................................Page 13
          Appendix VI – 2008 Annual Electronic Notice Filing Requirement ...........Page 14
       Appropriate Actions Were Taken to Prepare for the Receipt of
      New Filing Information From Smaller Tax-Exempt Organizations




                     Abbreviations

IRS            Internal Revenue Service
                   Appropriate Actions Were Taken to Prepare for the Receipt of
                  New Filing Information From Smaller Tax-Exempt Organizations




                                            Background

In Fiscal Year 2006, there were approximately 1.6 million tax-exempt organizations (excluding
churches) with $2.4 trillion in assets and $1.2 trillion in annual revenues. Although these
organizations are exempt from filing and paying income taxes, the larger organizations with
gross receipts of more than $25,000 are required to file annual information returns on their
tax-exempt activities. To maintain records for all tax-exempt organizations, the Internal
Revenue Service (IRS) uses the Exempt Organizations Business Master File.1 Information from
the Exempt Organizations Business Master File is used to update a comprehensive listing2 of
organizations that can receive tax deductible contributions.
However, both the Treasury Inspector General for Tax Administration and outside stakeholders,
such as the Panel on the Nonprofit Sector, have raised concerns regarding the accuracy and
reliability of information on the Exempt Organizations Business Master File.3 Both
organizations have reported this system contains errors or outdated information (e.g., exempt
organizations that have terminated operations). The Panel on the Nonprofit Sector recommended
Congress amend Federal tax laws to require smaller tax-exempt organizations excused from
filing an annual information return with the IRS to file an annual notice containing basic contact
and financial information. This information could then be used by the IRS to verify that the
exempt organization is still active. In addition, the Panel on the Nonprofit Sector recommended
the IRS be authorized to suspend the tax-exempt status of organizations that fail to file the
required notification form for 3 consecutive years.
On August 17, 2006, President Bush signed the Pension Protection Act of 20064 requiring
tax-exempt organizations5 previously not required to file an annual information return because
their gross receipts were $25,000 or less,6 to electronically file specific identifying information
with the IRS on an annual basis. This new filing requirement is effective beginning


1
  The IRS computer system for all exempt organizations that have had an application for exemption processed.
2
  Cumulative List of Organizations described in Section 170(c) of the Internal Revenue Code of 1986
(Publication 78).
3
  Treasury Inspector General for Tax Administration report The Reliability of the Information on the Exempt
Organizations Business Master File Needs to Be Improved (Reference Number 2001-10-023, dated December 2000)
and Panel on the Nonprofit Sector report Strengthening Transparency Governance Accountability of Charitable
Organizations (dated June 2005).
4
  Pub. L. 109-280, 120 Stat. 780 (2006).
5
  Exceptions to this requirement include churches and certain religious organizations, organizations included in a
group return, and private foundations or Internal Revenue Code Section 509(a)(3) organizations required to file an
information return.
6
  For example, parent-teacher and animal welfare organizations may not be required to file annual information
returns because their gross receipts are $25,000 or less.
                                                                                                          Page 1
                   Appropriate Actions Were Taken to Prepare for the Receipt of
                  New Filing Information From Smaller Tax-Exempt Organizations



January 2008. The Pension Protection Act also established a new requirement that organizations
failing to provide this information or failing to file an annual information return for
3 consecutive years will have their tax-exempt status revoked. This change in the tax law will
assist the Exempt Organizations function in identifying many tax-exempt organizations that have
ceased operations.
This audit was conducted while the web-based system required to process these annual electronic
notices (e-Postcards) was still being tested and implemented. As a result, this report may not
reflect the most current status of the e-Postcard system. In addition, this review focused on the
IRS’ efforts to prepare for the processing of annual information notices from smaller, tax-exempt
organizations and was not a systems development review of the new system. A separate
Treasury Inspector General for Tax Administration review7 will determine whether this project
was adequately implemented and met the intent of the Pension Protection Act.
This review was performed at the Office of Business Systems Planning and the Exempt
Organizations function in the National Headquarters of the Tax Exempt and Government Entities
Division in Washington, D.C., as well as the Modernization and Information Technology
Services organization office in New Carrollton, Maryland, during the period May through
October 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




7
  The proposed audit will review the Modernized e-File project, which develops the modernized, web-based
platform for filing approximately 330 IRS forms electronically and will accept e-Postcard information. The
proposed audit objectives are to determine whether Modernized e-File requirements development activities are
providing clear and complete requirements and whether the IRS and its contractors are using sound systems
development practices in developing the current Modernized e-File release. Also, the audit will determine whether
the e-Postcard project was adequately implemented and met the intent of the Pension Protection Act.
                                                                                                          Page 2
                    Appropriate Actions Were Taken to Prepare for the Receipt of
                   New Filing Information From Smaller Tax-Exempt Organizations




                                      Results of Review

The Internal Revenue Service Is Taking Action to Inform Exempt
Organizations of a New Filing Requirement and to Prepare for the
Receipt of Electronic Information
The IRS is taking appropriate actions to prepare for the        The IRS is taking appropriate
receipt and processing of annual electronic notices, also     actions to prepare for the receipt
known as e-Postcards, submitted by smaller tax-exempt          and processing of e-Postcards.
organizations. Specifically, IRS personnel have
identified tax-exempt organizations affected by the
legislation, performed outreach and education to inform these organizations that they may need
to file an e-Postcard, and are developing an electronic system that will allow smaller tax-exempt
organizations to electronically submit an e-Postcard. However, we identified some areas of
improvement related to the letter used to inform affected organizations and outreach performed
to notify tax-exempt organizations about the change in the law.
Information received via e-Postcards will assist the IRS in improving the reliability of
information maintained on its computer systems. Organizations that fail to provide this
information or fail to file an annual information return for 3 consecutive years will have their
tax-exempt status revoked. As a result, they will no longer be shown on the IRS’ computer
system as tax-exempt organizations.

The IRS has taken significant initial steps to prepare for the new filing
requirements of Section 1223 of the Pension Protection Act
The IRS is taking action to implement Section 1223 of the Pension Protection Act. Specifically,
the IRS is identifying affected tax-exempt organizations, informing them of the new filing
requirement and the consequences for nonfiling, and working with the Modernization and
Information Technology Services organization to develop a system to accept annual e-Postcards.
The Exempt Organizations function properly identified tax-exempt organizations that may
be affected by the new filing requirements of the Pension Protection Act
The Exempt Organizations function prepared a work request8 that established the criteria used to
identify the organizations affected by the new filing requirements. We reviewed the criteria

8
 A work request provides requirements to information technology specialists for the purpose of system testing,
changes to current or planned systems, or IRS hardware.

                                                                                                           Page 3
                     Appropriate Actions Were Taken to Prepare for the Receipt of
                    New Filing Information From Smaller Tax-Exempt Organizations



developed by the Business Systems Planning office to identify the affected organizations and did
not identify any errors or omissions. We also obtained our own data extract of exempt
organizations meeting the requirements of Section 1223 of the Pension Protection Act and
matched it against the exempt organizations identified by the Modernization and Information
Technology Services organization for the first 2 weeks that letters were generated. We
compared the two sets of data and determined the Exempt Organizations function took
appropriate actions to identify the affected organizations requiring notification. The IRS plans to
notify approximately 650,000 tax-exempt organizations of the new filing requirement.
The Exempt Organizations function is providing outreach and education about the new
filing requirement to affected tax-exempt organizations
The Exempt Organizations function is notifying affected organizations of the new filing
requirement through direct mailings of letters, as well as performing various education and
outreach activities.
The Exempt Organizations function developed a letter to notify affected tax-exempt
organizations of the new filing requirement. Generally, exempt organizations with gross receipts
of $25,000 or less are required to provide the organization’s legal name, any other name the
organization uses, mailing address and Internet web site address, employer identification
number,9 name and address of a principal officer, annual tax period, verification that the annual
gross receipts are normally $25,000 or less, and a notification if the organization has terminated
business.
In addition, Exempt Organizations function personnel developed procedures to process letters
that were returned as undeliverable after mailing. Specifically, these procedures identify the
internal and external information that employees should research to identify an accurate mailing
address. These procedures also include instructions to resend the letter if a new address is found
or update the IRS computer system if the research efforts are unsuccessful and the exempt
organization cannot be located.
We also determined the IRS has initiated or planned a number of education and outreach
initiatives to inform the overall tax-exempt organization population about the new Section 1223
Pension Protection Act filing requirements, as well as the fact that any organizations’ tax-exempt
status will be revoked for noncompliance with the statute’s requirements. These efforts, along
with plans to update notices, publications, and forms were documented in a Communications
Plan developed by the Exempt Organizations function’s Customer Education and Outreach
office to track the status of planned, ongoing, and completed initiatives.10
Based on our review of the Communications Plan, discussions with Exempt Organizations
function management, and research of the IRS Internet and Intranet web sites, we believe all

9
    A unique nine-digit number used to identify a taxpayer’s business account.
10
    Appendix V contains examples of education and outreach efforts from the Communications Plan.
                                                                                                   Page 4
                 Appropriate Actions Were Taken to Prepare for the Receipt of
                New Filing Information From Smaller Tax-Exempt Organizations



relevant internal and external sources of information have been identified and are either in
development or planned for revision to include information about the provisions of Section 1223
of the Pension Protection Act for the tax-exempt population.
The IRS is working to develop an electronic system that will allow smaller tax-exempt
organizations to submit an e-Postcard to the IRS via the Internet
While the Pension Protection Act requires the filing of e-Postcards by certain tax-exempt
organizations starting in January 2008, the IRS did not have a system in place that would accept
this information when this legislation was enacted in August 2006. As a result, the Exempt
Organizations function began working with the Modernization and Information Technology
Services organization to develop the e-Postcard system using IRS personnel and contractor
support. Development of the e-Postcard system was divided into several segments. These
include:
   •   Developing a front-end portal that will allow smaller tax-exempt organizations to register
       and file the required information.
   •   Transmitting the information to the IRS.
   •   Processing the information on IRS computer systems.
   •   Ensuring e-Postcard data are publicly available on the IRS Internet.
As of October 2007, based on our review of available documentation and discussions with
Exempt Organizations function and Modernization and Information Technology Services
organization management, the expected implementation of the e-Postcard in January 2008 is on
schedule. However, the IRS was still working to complete, test, and implement the system.
Issues identified during testing of the e-Postcard system, implementation delays, or any proposed
changes necessary based on management’s review could affect whether the system is timely and
successfully implemented.

The Exempt Organizations function is notifying affected organizations of the new
filing requirement of the Pension Protection Act, but we identified areas of
improvement necessary to fully comply with the law
To meet the requirements of Section 1223(e) of the Pension Protection Act, the IRS must timely
publicize via forms, instructions, and other appropriate means the fact that organizations’
tax-exempt status will be revoked for noncompliance with the statute’s requirements. As stated
earlier, the statute also requires affected tax-exempt organizations to provide the IRS the
organization’s legal name, mailing address and Internet web site address (if any), as well as
notify the IRS if the organization is no longer in existence.




                                                                                          Page 5
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations



As noted previously, the Exempt Organizations function
                                                                 We determined improvements
took timely action to inform affected organizations of           were needed to fully comply
the requirements of the Pension Protection Act using a               with the notification
letter and other outreach materials included in its              requirements of the Pension
Communications Plan. However, we reviewed a draft of                    Protection Act.
the new letter before it was issued and determined that
improvements were needed to fully comply with the
notification requirements of the Pension Protection Act.
Specifically, we determined the letter:
       •   Omitted the provision that requires organizations to notify the IRS when they have
           terminated operations.
       •   Informed affected tax-exempt organizations that they would need to provide their
           organization’s name instead of their legal name. Some tax-exempt organizations have a
           name they use for day-to-day business that is different from their legal name (e.g., the
           organization’s name on its web site versus the legal name on the articles of
           incorporation).
       •   Informed affected tax-exempt organizations that they would need to provide their
           organization’s address instead of their mailing address. Some tax-exempt organizations
           have a street address that is different from the address where they receive mail.
In addition, we also reviewed the documents contained in the Communications Plan that had
already been completed or updated and determined that information could be clarified in two of
the documents to ensure that affected tax-exempt organizations understood what information
would be required from them. Specifically:
       •   A document used to assist employees during education and outreach events indicated that
           affected tax-exempt organizations would be required to provide their name instead of
           their legal name.
       •   The Compliance Guide for 501(c)(3)11 Tax-Exempt Organizations (Publication 4221)
           indicates that affected tax-exempt organizations are required to provide their name
           instead of their legal name and their address instead of their mailing address.
During the audit, we recommended the letter used to inform organizations of the new filing
requirement and other documents be updated to include all information required to be submitted
as part of the new e-Postcard filing requirement. Exempt Organizations function management
took immediate action to correct the letter prior to issuing it to affected tax-exempt



11
     This refers to Internal Revenue Code Section 501(c)(3).
                                                                                                Page 6
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations



organizations.12 At the time of our review, the IRS had issued 577,713 letters.13 In addition, the
IRS revised the document used to assist employees during education and outreach efforts and
agreed to revise Publication 4221 prior to its next reprinting. These changes will ensure the IRS
provides clear and accurate information about smaller tax-exempt organizations’ new filing
requirements and prevent confusion by these organizations about what information to provide.
Inaccurate guidance to organizations could have resulted in increased burden as these
organizations try to determine what information should be provided and possibly increased calls
to the IRS to confirm what information is required.




12
     See Appendix VI for an example of a corrected letter.
13
     This figure is as of November 13, 2007.




                                                                                            Page 7
                    Appropriate Actions Were Taken to Prepare for the Receipt of
                   New Filing Information From Smaller Tax-Exempt Organizations



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the adequacy of the IRS’ efforts to prepare for the receipt of
new filing information by tax-exempt organizations with gross receipts of $25,000 or less as
required by the Pension Protection Act of 2006.1 To accomplish our objective, we:
I.      Determined whether actions required to implement Section 1223 of the Pension
        Protection Act were identified and on schedule for tax years beginning after 2006.
        A. Identified what actions were required to implement the notification requirement for
           entities currently not required to file.
        B. Assessed whether all required actions were identified and documented.
        C. Determined whether actions were on schedule.
II.     Determined efforts taken to identify and timely inform tax-exempt organizations affected
        by Section 1223 of the Pension Protection Act.
        A. Interviewed Exempt Organizations function management to determine how affected
           organizations were identified.
        B. Obtained and reviewed the documentation used by the IRS to identify exempt
           organizations meeting the notification requirements.
        C. Obtained a Master File2 extract of exempt organizations described in Section 6033(i) of
           the Internal Revenue Code of 1986, as amended by Section 1223 of the Pension
           Protection Act, and compared it to the affected organizations identified by the IRS to
           assess whether the IRS correctly identified organizations required to be notified of the
           revised filing requirements. We validated the accuracy of the extracted data and
           found no inaccuracies or missing information.
        D. Obtained and reviewed the letter used to inform affected tax-exempt organizations to
           ensure that it clearly included the requirements under Section 6033(i) and the penalty
           established under Section 6033(j).
        E. Determined whether the Internet and other methods of outreach were being used to
           notify affected tax-exempt organizations.


1
 Pub. L. 109-280, 120 Stat. 780 (2006).
2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 8
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations



           F. Interviewed Exempt Organizations function management to determine what actions
              would be taken with regard to letters returned as undeliverable.
III.       Assessed efforts to prepare for the filing of e-Postcards.
           A. Interviewed Exempt Organizations function management to identify computer
              changes necessary to implement Section 1223 of the Pension Protection Act.
           B. Interviewed personnel with the Tax Exempt and Government Entities Division Office
              of Business Systems Planning and responsible Modernization and Information
              Technology Services organization officials to discuss the scope of programming
              changes needed to implement Section 1223 of the Pension Protection Act and
              obtained related work requests.
           C. Determined whether work requests addressed all issues necessary to timely
              implement Section 1223 of the Pension Protection Act.
           D. Researched the Work Request Tracking System3 to determine whether work requests
              were on schedule.
IV.        Assessed efforts to update guidance and procedures related to the implementation of
           Section 1223 of the Pension Protection Act.
           A. Identified taxpayer guidance and internal procedures that required updating.
           B. Determined whether relevant guidance and procedures were updated or scheduled for
              updating.
           C. Reviewed guidance and procedures that have been updated for consistency with
              Section 1223 of the Pension Protection Act.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Exempt Organizations function’s policies,
procedures, and practices for planning, managing, and monitoring the IRS’ efforts to implement
Section 1223 of the Pension Protection Act. We reviewed these controls by interviewing
management and analyzing applicable information and documents. We did not identify any
significant weaknesses.



3
    The Work Request Tracking System generates and tracks work requests from initiation to completion.
                                                                                                         Page 9
                Appropriate Actions Were Taken to Prepare for the Receipt of
               New Filing Information From Smaller Tax-Exempt Organizations



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Jeffrey M. Jones, Audit Manager
Thomas F. Seidell, Lead Auditor
Donald J. Martineau, Auditor
Michael A. McGovern, Auditor
Carol A. Rowland, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                    Page 10
               Appropriate Actions Were Taken to Prepare for the Receipt of
              New Filing Information From Smaller Tax-Exempt Organizations



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisions:
   Associate Chief Information Officer, Applications Development OS:CIO:AD
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL




                                                                                  Page 11
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations



                                                                                    Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Taxpayer Burden – Actual, 577,713 tax-exempt organizations that received the corrected
       letter (see page 3).

Methodology Used to Measure the Reported Benefit:
During the audit, we recommended that the letter used to inform organizations about the new
filing requirement be updated to include all information required to be submitted as part of the
new e-Postcard filing requirement. Exempt Organizations function management took immediate
action to correct the letter prior to issuing it to affected tax-exempt organizations.1 At the time of
our review, the IRS had issued 577,713 letters.2




1
    See Appendix VI for an example of a corrected letter.
2
    This figure is as of November 13, 2007.
                                                                                              Page 12
                      Appropriate Actions Were Taken to Prepare for the Receipt of
                     New Filing Information From Smaller Tax-Exempt Organizations



                                                                                     Appendix V

         Examples of Outreach and Education Efforts
       Included in the e-Postcard Communications Plan

The IRS has initiated or planned education and outreach initiatives to inform tax-exempt
organizations about the new Section 1223 of the Pension Protection Act of 20061 filing and
reporting requirements, as well as the fact that organizations’ tax-exempt status will be revoked
for noncompliance with the statute’s requirements. These efforts, along with plans to update
notices, publications, and forms were documented in a Communications Plan. Examples of these
initiatives include:
       •   News releases and articles to inform the media, public, and IRS employees about the new
           filing requirement and filing process that will affect smaller tax-exempt organizations.
       •   A “talking points” document about the new e-Postcard filing requirement to assist
           employees during education and outreach events.
       •   Flyers, posters, and leaflets to inform customers about the new provisions of
           Section 1223 of the Pension Protection Act during education and outreach events, such as
           tax forums and workshops.
       •   Workshops and tax forums to inform smaller and mid-size organizations about the
           provisions of Section 1223 of the Pension Protection Act.
       •   New and revised notices for noncompliant tax-exempt organizations to include pertinent
           information about the new filing and reporting requirements, as well as penalties
           (revocation of tax-exempt status) for not complying with the new provisions of
           Section 1223 of the Pension Protection Act.
       •   Inserts about the new provisions of Section 1223 of the Pension Protection Act that will
           be included with future determination letters.
       •   Relevant tax publications, forms, and related instructions to include information about the
           new provisions of Section 1223 of the Pension Protection Act.
       •   Meeting with State charity regulators, Attorneys General, and National Association of
           State Charity Officials board members to request their assistance to notify tax-exempt
           organizations about the new filing requirement provisions of Section 1223 of the Pension
           Protection Act.


1
    Pub. L. 109-280, 120 Stat. 780 (2006).
                                                                                               Page 13
       Appropriate Actions Were Taken to Prepare for the Receipt of
      New Filing Information From Smaller Tax-Exempt Organizations



                                                       Appendix VI

2008 Annual Electronic Notice Filing Requirement




                                                              Page 14
 Appropriate Actions Were Taken to Prepare for the Receipt of
New Filing Information From Smaller Tax-Exempt Organizations




                                                        Page 15
